No. 20-1255

 

IN THE
Supreme Court of the United States

JEFFREY SCHWEITZER, ET AL.,

Petitioners,
v.

INVESTMENT COMMITTEE OF THE
PHILLIPS 66 SAVINGS PLAN, ET AL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,918 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 10, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
